Audit Report




OIG-09-023
Audit of the Financial Crimes Enforcement Network’s
Fiscal Years 2008 and 2007 Financial Statements

January 6, 2009




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                January 6, 2009


            MEMORANDUM FOR JAMES H. FREIS, JR., DIRECTOR
                            FINANCIAL CRIMES ENFORCEMENT NETWORK

            FROM:                   Michael Fitzgerald /s/
                                    Director, Financial Audits

            SUBJECT:                Audit of the Financial Crimes Enforcement Network’s
                                    Fiscal Years 2008 and 2007 Financial Statements

            I am pleased to transmit the attached audited Financial Crimes Enforcement
            Network’s (FinCEN) financial statements for fiscal years 2008 and 2007. Under a
            contract monitored by the Office of Inspector General, KPMG LLP, an independent
            certified public accounting firm, performed an audit of the financial statements of
            FinCEN as of September 30, 2008 and 2007 and for the years then ended. The
            contract required that the audit be performed in accordance with generally
            accepted government auditing standards; applicable provisions of Office of
            Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report on Financial Statements;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP reported:

                •   that the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles,

                •   no matters involving internal control and its operations that are considered
                    material weaknesses, and

                •   no instances of reportable noncompliance with laws and regulations tested.

                •   an instance of a potential Anti-deficiency Act violation related to obligations
                    and expenditures for FinCEN’s Bank Secrecy Act Direct Retrieval and Sharing
                    System project.
In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated December 18, 2008 and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Ade Bankole, Manager, Financial Audits at
(202) 927-5329.

Attachment
     DEPARTMENT OF THE TREASURY
FINANCIAL CRIMES ENFORCEMENT NETWORK
           Financial Statements

           September 30, 2008
                              DEPARTMENT OF THE TREASURY
                         FINANCIAL CRIMES ENFORCEMENT NETWORK


                                     Table of Contents



                                                                Page

Independent Auditors’ Report                                       2

Management Discussion and Analysis                                 9

Financial Statements and Notes                                    17

Required Supplementary Information                                44
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                        Independent Auditors’ Report on Financial Statements


Inspector General, U.S. Department of the Treasury and
Director, Financial Crimes Enforcement Network:


We have audited the accompanying balance sheets of the U.S. Department of the Treasury – Financial
Crimes Enforcement Network (FinCEN) as of September 30, 2008 and 2007, and the related statements of
net cost, changes in net position, budgetary resources and custodial activity (hereinafter referred to as
“financial statements”) for the years then ended. These financial statements are the responsibility of
FinCEN’s management. Our responsibility is to express an opinion on these financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes consideration of internal control
over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of FinCEN’s internal control over
financial reporting. Accordingly, we express no such opinion. An audit also includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements, assessing the
accounting principles used and significant estimates made by management, as well as evaluating the
overall financial statement presentation. We believe that our audits provide a reasonable basis for our
opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the U.S. Department of the Treasury – Financial Crimes Enforcement Network as of
September 30, 2008 and 2007, and its net costs, changes in net position, budgetary resources, and custodial
activity for the years then ended in conformity with U.S. generally accepted accounting principles.

The information in the Management Discussion and Analysis and Required Supplementary Information
sections is not a required part of the financial statements, but is supplementary information required by
U.S. generally accepted accounting principles and OMB Circular No. A-136, Financial Reporting
Requirements. We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information. However, we
did not audit this information and, accordingly, we express no opinion on it.




                                                                         2
                                 KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                 a member of KPMG International, a Swiss cooperative.
In accordance with Government Auditing Standards, we have also issued our reports dated December 18,
2008, on our consideration of FinCEN’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




December 18, 2008




                                                      3
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




            Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, U.S. Department of the Treasury and
Director, Financial Crimes Enforcement Network:


We have audited balance sheets of the U.S. Department of the Treasury – Financial Crimes Enforcement
Network (FinCEN) as of September 30, 2008 and 2007 and the related statements of net cost, changes in
net position, budgetary resources and custodial activity (hereinafter referred to as “financial statements”)
for the years then ended, and have issued our report thereon dated December 18, 2008.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free of material misstatement.

The management of FinCEN is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2008 audit, we considered FinCEN’s internal control over
financial reporting by obtaining an understanding of the design effectiveness of FinCEN’s internal control,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the financial statements. To achieve this purpose, we did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The
objective of our audit was not to express an opinion on the effectiveness of FinCEN’s internal control over
financial reporting. Accordingly, we do not express an opinion on the effectiveness of FinCEN’s internal
control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and would not necessarily identify all deficiencies in the internal control over
financial reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects FinCEN’s ability to initiate, authorize, record, process, or report financial data
reliably in accordance with U.S. generally accepted accounting principles such that there is more than a
remote likelihood that a misstatement of FinCEN’s financial statements that is more than inconsequential
will not be prevented or detected by FinCEN’s internal control. A material weakness is a significant
deficiency, or combination of significant deficiencies, that results in more than a remote likelihood that a
material misstatement of the financial statements will not be prevented or detected by FinCEN’s internal
control.


                                                                        4
                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss cooperative.
In our fiscal year 2008 audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above. Exhibit I presents the status of
prior year’s material weakness.

This report is intended solely for the information and use of FinCEN’s management, the U.S. Department
of the Treasury Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




December 18, 2008




                                                   5
                                                                                           EXHIBIT I

                      STATUS OF PRIOR YEARS’ MATERIAL WEAKNESS

As required by Government Auditing Standards issued by the Comptroller General of the United States,
and by OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, we have
reviewed the status of prior year’s finding and recommendation. The following table provides our
assessment of the progress FinCEN has made in correcting the material weakness identified during these
audits.

           Material
                                         Recommendation                           Status
           Weakness
                           Recommendation No. 1: We recommend that
       Improvements        FinCEN improve its review procedures over the
       are needed in the   financial statements preparation. Improvements
       supervisory         should include:
       review              o Implementing procedures to ensure accurate
       performed over        percentages are used in allocating expenses         Closed
       calculation of        and revenues on the SNC.
       expenses and        o Adequate supervisory review of the final
       revenues for the      allocations performed over the SNC and the
       statement of net      related footnote disclosures before issuing
       cost                  financial statements.




                                                  6
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury and
Director, Financial Crimes Enforcement Network:


We have audited the balance sheets of the U.S. Department of the Treasury – Financial Crimes
Enforcement Network (FinCEN) as of September 30, 2008 and 2007, and the related statements of net
cost, changes in net position, budgetary resources and custodial activity (hereinafter referred to as
“financial statements”) for the years then ended, and have issued our report thereon dated December 18,
2008.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement.

The management of FinCEN is responsible for complying with laws, regulations, and contracts applicable
to FinCEN. As part of obtaining reasonable assurance about whether FinCEN’s financial statements are
free of material misstatement, we performed tests of FinCEN’s compliance with certain provisions of laws,
regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 07-04, including the provisions referred to in Section 803(a) of the Federal
Financial Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations,
and contracts applicable to FinCEN. However, providing an opinion on compliance with those provisions
was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which FinCEN’s financial management
systems did not substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level.

During our audit, FinCEN management informed us that, between fiscal years 2004 and 2006, obligations
and expenditures related to FinCEN’s Banks Secrecy Act Direct Retrieval and Sharing System (BSA
Direct R&S) project may have exceeded the approved and appropriated funding limits. The U.S.
Department of the Treasury Office of Inspector General has requested the General Counsel of the U.S.
Government Accountability Office (GAO) to review this matter to determine whether a violation of the

                                                                        7
                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss cooperative.
Anti-Deficiency Act occurred, but a conclusion has not yet been reached. Since GAO’s review is not
complete, the outcome of this matter, and any resulting actions, are not presently known.

This report is intended solely for the information and use of FinCEN’s management, the U.S. Department
of the Treasury Office of Inspector General, OMB, the GAO, and the U.S. Congress and is not intended to
be and should not be used by anyone other than these specified parties.




December 18, 2008




                                                  8
Management Discussion and Analysis
                             Department of the Treasury
                        Financial Crimes Enforcement Network

                           Management Discussion and Analysis
                                  September 30, 2008

The Financial Crimes Enforcement Network (FinCEN), a bureau within the Department
of the Treasury’s Office of Terrorism and Financial Intelligence, plays a key role in
supporting the Department’s strategic goal of ‘Prevented terrorism and promoted the
nation’s security through strengthened international financial systems’. This role
includes ensuring safer and more transparent U.S. and international financial systems
through the administration of the Bank Secrecy Act (BSA).

The BSA requires financial institutions to file reports on certain types of financial activity
and to establish appropriate internal controls to guard against money laundering, terrorist
financing, and other types of illicit finance. These reports have a high degree of
usefulness in criminal, tax, and regulatory matters. Documents filed by businesses
pursuant to the BSA requirements are heavily used by law enforcement agencies, both
domestically and through exchanges with international counterparts, to identify, detect
and deter money laundering, whether it is in furtherance of a criminal enterprise,
terrorism, tax evasion or other unlawful activity. FinCEN also serves as the nation’s
financial intelligence unit (FIU). An FIU serves as a national center to collect, analyze,
disseminate, and exchange information pursuant to a country’s anti-money
laundering/combating the financing of terrorism (AML/CFT) legislation and regulations.
This includes information about suspicious or unusual financial activity reported by the
financial sector.

FinCEN fulfills its mission, goals and priorities by: administering the BSA; supporting
policy makers, law enforcement, regulatory, and intelligence agencies through sharing
and analysis of financial intelligence; enhancing international AML/CFT efforts and
cooperation; and networking people, entities, ideas, and information. FinCEN’s activities
and efforts are developed in coordination with federal, state, and international partners.
These bureau efforts are linked to the following strategic goals:

     •   Financial systems resistant to abuse by money launders, terrorists, and their
         financial supporters, and other perpetrators of financial crime;
     •   Detection and deterrence of money laundering, terrorism financing, and other
         illicit activity; and
     •   Efficient management, safeguarding, and use of BSA information.

Regulatory Accomplishments

FinCEN’s regulatory policy efforts focus on efficient and effective administration of the
BSA. This includes improving the consistency in the application of BSA regulations to
regulated financial institutions, providing guidance regarding regulatory expectations,




                                              9
conducting studies to provide feedback to stakeholders, and initiating enforcement
actions when appropriate.

In FY 2008, FinCEN published guidance relating to the anti-money laundering program
rule for dealers in precious metals, precious stones, or jewels, as well as several pieces of
guidance to further clarify the definition of money services businesses (MSBs). FinCEN
also published a notice of proposed rulemaking in the Federal Register that would
simplify the existing currency transaction reporting exemption regulatory requirements,
and the bureau continued to work towards presenting a final rule.

Also in FY 2008, FinCEN published three strategic assessments describing findings from
Suspicious Activity Report (SAR) analysis to provide feedback to industry, regulatory,
and law enforcement stakeholders. The assessments identified reporting trends and
patterns and described vulnerabilities and typologies gleaned from reviewing SAR
records: reviewing SARs after the first year of mandated reporting by certain insurance
companies; reporting suspected money laundering activities in the residential real estate
sector; and describing mortgage loan fraud.

Additionally, in FY 2008, FinCEN published a proposed rule to overhaul BSA
regulations for inclusion in a new Code of Federal Regulations (CFR) chapter. The new
CFR chapter is an effort to provide greater clarity in regulations and make them easier for
industry to follow, as well as more intuitive and responsive to industry feedback.

Analytic Efforts in Support of Detection and Deterrence of Money Laundering

FinCEN’s analytic efforts focus on developing products and services to help law
enforcement better utilize resources to enhance detection and deterrence of domestic and
international money laundering, terrorism financing, and other illicit activity. This
includes exchange of information with counterpart foreign government FIUs in 108
countries that are members of the Egmont Group.

In FY 2008, FinCEN continued to enhance its support to law enforcement agencies by
focusing on actionable analyses targeted at high-priority money laundering and terrorist
financing targets. This effort was enhanced through collaborative efforts with Customs
and Border Protection, Immigration and Customs Enforcement, and the Coast Guard.
Additionally, FinCEN published two comprehensive technical reference guides for law
enforcement officials (PayPal and MoneyGram).

FinCEN continued to work with its Egmont Group partners to develop actionable
intelligence concerning illicit money flows and provided technical assistance and training
to Egmont Group candidates and members. FinCEN increased collaboration with the
Mexican FIU that involved analytical training, multiple on-site visits, support of
information technology updates, and joint analytical projects.




                                             10
Accessibility of BSA Information

FinCEN’s efforts related to the efficient management, safeguarding, and use of BSA
information focus on maximizing utilization by improving the overall information
infrastructure and enhancing information technology management capabilities.
Improving data quality and access remains a priority for FinCEN.

In FY 2008, FinCEN began the process to retire magnetic media filing, maximized BSA
E-Filing capabilities and BSA data validation, and implemented data quality measures to
improve its management of BSA data and increase coordination and communication with
its federal stakeholders. The bureau also continued initial planning associated with the
previously announced multi-year information technology modernization initiative.
FinCEN implemented a new public website in May 2008 that improved navigation and
allows customers to more easily find the information needed and created a more flexible
and sustainable site structure. FinCEN also increased law enforcement access to BSA
information through additional memoranda of understanding (MOUs) with U.S.
Attorney’s Offices.


Highlights of Performance Measures

Performance Measures                                                                   FY 2007   FY 2008    FY 2008
                                                                                        Actual    Target     Actual
Percentage of federal and state regulatory agencies with memoranda of                    New       40%        41%
understanding/information sharing agreements
Percentage of FinCEN’s Regulatory Resource Center customers rating the guidance         91%       90%        94%
received as understandable
Average time to process enforcement matters (years)                                     1.1        1.0        0.7
Percentage of FinCEN’s compliance MOU holders finding FinCEN’s information exchange     New        Est.      64%
valuable to improve the BSA consistency and compliance of the financial system                   Baseline
Percentage of bank examinations conducted by the Federal Banking Agencies indicating     5.2       5.2        2.5
a systemic failure of the anti-money laundering program rule.
Percentage of customers finding FinCEN’s analytic support highly valuable               82%       79%       83%
Percentage of customers satisfied with BSA E-Filing                                     94%       90%       93%

FinCEN continues to increase activities to monitor BSA compliance by financial
institutions examined by state and federal regulators through entering into MOUs to
exchange information. In 2008, FinCEN executed three additional such agreements and
surpassed its FY 2008 target of 40 percent with 41 percent of federal/state regulatory
agencies with MOUs. These MOUs help ensure effective application of the BSA
regulations across all regulated financial service industries by providing vital compliance
data. In FY 2008, FinCEN surveyed its compliance MOU holders to determine the
impact of the information exchange to improve the BSA consistency and compliance of
the financial system, and established a 64 percent baseline of respondents rating the
information exchange valuable to improving BSA consistency and compliance.
FinCEN’s goal to provide financial institutions with understandable guidance is critical to
institutions establishing anti-money laundering programs that comply appropriately with


                                                      11
the BSA. FinCEN’s goal is to maintain a 90 percent satisfaction level and it surpassed
the target with 94 percent of customers rating the guidance received as “understandable.”

FinCEN works closely with its regulatory partners to take enforcement action against
financial institutions that systemically and egregiously violate the provisions of the BSA,
including through imposition of civil money penalties when appropriate. Timely
enforcement action is essential to deter non-compliance with the BSA. In FY 2008,
FinCEN surpassed its target of an average time to process enforcement matters of 1.0
years with an average time of 0.7 years. FinCEN established a baseline for the
performance measure “percentage of bank examinations conducted by federal banking
agencies indicating a systemic anti-money laundering program failure” in FY 2007. This
measure provides an indicator to FinCEN of trends in regulatory compliance and
examination efforts. As the percentage goes up or down, FinCEN considers what it
means within a totality of circumstances. Either laxity in examinations or increased
vigilance in compliance could trigger a downward trend in the indicator. In FY 2008, the
percentage of banking institutions cited for program failures during examinations fell
significantly below the 5.2 percent indicator level to 2.5 percent. The improvement is
primarily attributable to greater consistency among bank regulators in citing instances of
program failures.

FinCEN supports domestic law enforcement and international FIU partners by providing
analyses of BSA information, and measures the percentage of customers finding
FinCEN’s analytic reports highly valuable. The measure closely ties to how BSA
information is used by law enforcement and international FIUs to identify, investigate,
and prevent abuse of the financial system. In FY 2008, FinCEN surpassed its target of 79
percent with 83 percent of its customers finding the analytic products highly valuable.

The information and technology used to facilitate analysis are at the core of FinCEN’s
mission to deter and detect criminal activity, and to safeguard financial systems from
abuse by promoting transparency in the U.S. and international financial systems.
FinCEN conducts a survey of the users of the BSA E-Filing system to determine the
overall satisfaction level and to identify where improvements are needed. The FY 2008
target is to maintain at least a 90 percent satisfaction level, and FinCEN surpassed its
target with 93 percent.


Future Outlook for FY 2009/FY 2010

FinCEN’s future plans will improve its ability to strengthen financial system security and
enhance U.S. national security. To ensure financial systems are resistant to abuse by
money launderers, terrorists and other perpetrators of financial crimes, FinCEN will:

   • Continue its outreach initiative to reach out to the largest fifteen depository
     institutions in the U.S. and expand this to include additional financial service
     industries;
   • Develop a strategy for more consistent application of the BSA across industries;


                                            12
   • Develop additional MOUs to exchange information with state regulators, with a
     focus on insurance commissioners;
   • Conduct and publish additional studies promoting greater awareness of emerging
     money laundering trends and vulnerabilities; and
   • Provide greater clarity to regulated industries regarding their requirements under
     the BSA.

To further detect and deter money laundering, terrorism financing, and other illicit
activity, FinCEN will:

   • Improve and expand collaborative relationships with investigative and intelligence
     agencies to exploit SARs for proactive evaluation;
   • Implement a process to capture and measure analytic product relevance to support
     law enforcement;
   • Increase the number of strategic analysis projects undertaken, including suspicious
     transnational money flows documented by BSA information, and Casino and
     Securities and Futures SARs to identify significant suspicious activity that
     transcends local SAR review criteria;
   • Increase analyst exchanges and joint analytic activities with partner FIUs, and
     expand the complexity of FinCEN products provided to international partners; and
   • Increase outreach to U.S. law enforcement and regulatory agencies to educate
      them on the benefits provided by the global network of FIUs.

To ensure efficient management, safeguarding and use of BSA information, FinCEN
will:

   • Increase BSA utilization by improving BSA information management and
     analysis;
   • Develop or acquire technology to proactively identify, extract and analyze specific
     datasets, entities or subject networks;
   • Upgrade information technology to better retrieve and share BSA information with
     a growing user population; and
   • Continue information technology modernization.


FY 2008 Financial Statement Highlights

Highlights of FinCEN’s FY 2008 financial performance appear below. FinCEN is
financed annually through appropriations authorized by Congress. The FY 2008 enacted
budget is $85.8 million. Total assets were $39.9 and $41.8 million and total liabilities
were $11.5 and $14.4 million at the end of FYs 2008 and 2007, respectively.

Assets: FinCEN’s total assets as of September 30, 2008 and 2007 were $39.9 and $41.8
million, respectively, of which approximately 70 percent consists of the fund balance
with the Treasury in 2008 and 64 percent in 2007. Total assets decreased by $1.9
million. The property and equipment decreased by $5.4 million. This decrease was


                                            13
primarily the result of a $3.2 million write-off of equipment and software, a $2.9 million
decrease due to depreciation expense, and a $.7 million offset by asset additions and
adjustments. The write-off of equipment and software is associated with the cancellation
of the BSA Direct Data Retrieval and Sharing Project. This write-off was caused by the
further delay of the BSA modernization project effort that would have used this
commercial software. The decrease in property and equipment is offset by a $3.5 million
increase in intragovernmental assets that includes a $1.3 million increase to the Fund
Balance with Treasury, a $.9 million increase in accounts receivable, and a $1.3 million
increase in “other” intragovernmental assets primarily due to prepayments for acquisition
services with Department of Interior, National Business Center.

Liabilities: Total liabilities as of September 30, 2008 and 2007 were $11.5 and $14.4
million, respectively. There was a $2.9 million decrease in the total liabilities in FY 2008
over FY 2007. This consisted of a $2.3 million reduction in intragovernmental and a $0.6
million reduction in liabilities with the public. The major component of the decrease in
intragovernmental liabilities was the result of timelier billing by the Department of
Homeland Security for guard services.

Net Cost of Operations: The net cost of FinCEN operations totaled as of September 30,
2008 and 2007 was $111.3 million and $106.2 million, respectively, an increase of 4.8
percent. All of FinCEN’s costs are reported under the Department of the Treasury’s
Strategic Goal 3: Preserve the Integrity of Financial Systems. FinCEN’s net cost aligned
to its own Strategic Goals is disclosed on the face of the statement of net cost. A
significant portion of FinCEN’s net costs ($52.3 million or 47 percent) relates to Strategic
Goal 3: Enhanced management, use and security of BSA information.

Custodial Revenue: Total custodial revenue as of September 30, 2008 and 2007 was $.01
million and $11 million, respectively. Total net revenue collected by FinCEN on behalf
of the federal government consists mainly of civil monetary penalties. These penalties
are assessed against businesses or individuals who do not comply with the reporting and
disclosure requirements of the BSA.


Internal Controls, Systems, and Audits

Financial management systems are in compliance with federal financial systems
standards, the Federal Manager’s Financial Integrity Act (FMFIA) Section 4, and the
Federal Financial Management Improvement Act (FFMIA). FinCEN relies on the
Bureau of Public Debt (BPD) Administrative Resource Center (ARC) for administrative
and accounting services and systems. FinCEN’s investment review board meets
routinely to monitor ongoing IT projects and review proposed capital investments.

Four audits were completed in FY 2008; two by the Government Accountability Office
(GAO) and two by the Treasury Office of Inspector General (OIG). The first GAO audit
reviewed currency transaction report exemptions and recommended changes to reduce
industry reporting requirements. The second GAO audit reviewed USA PATRIOT Act
Section 311 actions and concluded that Treasury’s process for implementing Section 311


                                            14
was consistent with legal requirements set forth in the Act. The first OIG report reviewed
responsibilities associated with the BSA among various federal organizations. The report
recommended that FinCEN assess the compliance information sharing agreements with
regulators, ensure communication with law enforcement regarding investigative support,
and develop a BSA-related performance measure. The second OIG report reviewed
FinCEN’s information technology infrastructure and identified opportunities to further
strengthen network security.

At the end of FY 2008, eight GAO and OIG audits were ongoing. In association with
one of the ongoing audits, GAO is reviewing a possible Anti-Deficiency Act violation
relating to an FY 2004 closed contract, but has currently not completed that review.


Improper Payment Improvement Act (IPIA) Reporting

Background: The Improper Payments Information Act of 2002 (IPIA) requires agencies
to review their programs and activities to identify those that are susceptible to significant
erroneous payments. “Significant” means that an estimated error rate and a dollar
amount exceed the threshold of 2.5 percent and $10 million of total program funding.

Risk Assessment Methodology: As a bureau of the Department of the Treasury, FinCEN
follows the methodology and guidance prescribed by the Department. Each year, a
comprehensive inventory of the funding sources for all programs and activities is
developed. If program or activity funding is at least $10 million, risk assessments are
required at the payment type level (e.g., payroll, contracts, vendors, travel, etc.). For
those payment types resulting in high risk assessments that comprise at least 2.5 percent
and $10 million of a total funding source, (1) statistical sampling must be performed to
determine the actual improper payment rate, and (2) if erroneous payments exceed $10
million, a corrective action plan to reduce erroneous payments must be developed and
submitted to the Office of Management and Budget (OMB) for approval.

Results for FY 2008: All of FinCEN’s programs and activities resulted in low risk
susceptibility for improper payments.


Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and
results of operations of FinCEN. While the statements have been prepared from the
books and records of FinCEN in accordance with GAAP for federal entities and the
formats prescribed by OMB, the statements are in addition to the financial reports used to
monitor and control budgetary resources which are prepared from the same books and
records.

The statements should be read with the realization that they are for a component of the
U.S. Government, a sovereign entity.



                                             15
THIS PAGE INTENTIONALLY LEFT BLANK




                16
                       United States Department of the Treasury
                        Financial Crimes Enforcement Network
                                    Balance Sheets

                                                                    As of September 30
                                                             2008                        2007


ASSETS (Note 2)
Intragovernmental:
  Fund balance with Treasury (Note 3)                     $28,070,158               $26,747,399
  Accounts receivable (Note 4)                                987,111                     117,179
  Other (Note 6)                                             3,518,468                   2,189,308
Total intragovernmental                                     32,575,737               29,053,886


  Accounts receivable, net (Notes 2 and 4)                       5,228                      5,392
  Property and equipment, net (Note 5)                       7,350,830               12,701,297
  Other (Note 6)                                                11,990                          0
Total assets                                              $39,943,785               $41,760,575


LIABILITIES (Note 7)
Intragovernmental:
  Accounts payable                                           1,891,961                   3,985,945
  Other (Note 8)                                             2,462,237                   2,760,079
Total intragovernmental                                      4,354,198                   6,746,024


  Accounts payable                                           3,249,208                   4,317,323
  Other (Note 8)                                             3,887,206                   3,381,775
Total liabilities                                           11,490,612               14,445,122


Commitments and contingencies (Notes 9 and 10)


NET POSITION
 Unexpended appropriations                                  25,676,184               19,374,601
  Cumulative results of operations                           2,776,989                   7,940,852
Total net position                                          28,453,173               27,315,453
Total liabilities and net position                        $39,943,785               $41,760,575



                                             17
       The accompanying notes are an integral part of these financial statements.
                         United States Department of the Treasury
                          Financial Crimes Enforcement Network
                                  Statements of Net Cost


                                                        For the Years Ended September 30
PROGRAM COSTS (Note 11)                                   2008                         2007
Financial systems resistant to abuse by money
launders, terrorists, etc.
  Gross costs                                            $33,749,889              $32,338,615
  Less: earned revenue                                      (22,171)                        0
Net program costs                                         33,727,718               32,338,615


Detection and deterrence of money laundering,
terrorism financing and other illicit activity
  Gross costs                                             25,477,865               23,707,014
  Less: earned revenue                                     (174,069)                (415,015)
Net program costs                                         25,303,796               23,291,999


Efficient management, safeguarding, and use of Bank
Secrecy Act information
  Gross costs                                             54,226,684               51,538,213
  Less: earned revenue                                    (1,934,751)              (1,003,801)
Net program costs                                         52,291,933               50,534,412




Net cost of operations                                  $111,323,447             $106,165,026




                                                18
          The accompanying notes are an integral part of these financial statements.
                          United States Department of the Treasury
                           Financial Crimes Enforcement Network
                            Statements of Changes in Net Position

                                                               For the Years Ended September 30
                                                                  2008                      2007
Cumulative Results of Operations:
  Beginning balances                                             $7,940,852               $14,685,344


Budgetary financing sources:
  Appropriations used                                            78,434,305                74,482,105


Other financing sources (non-exchange):
  Transfers in/out without reimbursement                            475,111                          -
  Imputed financing from costs absorbed by others (Note 14)      27,250,168                24,938,429
Total financing sources                                         106,159,584                99,420,534


Net cost of operations                                        (111,323,447)           (106,165,026)
Net change                                                       (5,163,863)               (6,744,492)


Cumulative results of operations                                 $2,776,989                $7,940,852


Unexpended appropriations:
  Beginning balance                                             $19,374,601               $20,879,843


Budgetary financing sources:
  Appropriations received                                        85,844,000                73,216,364
  Appropriations transferred in/out                                 221,045                   225,000
  Other adjustments (Note 12)                                    (1,329,157)                (464,501)
  Appropriations used                                          (78,434,305)               (74,482,105)
Total budgetary financing sources                                 6,301,583                (1,505,242)


Total unexpended appropriations                                  25,676,184                19,374,601


Net position                                                    $28,453,173               $27,315,453


                                                19
             The accompanying notes are an integral part of these financial statements.
                        United States Department of the Treasury
                         Financial Crimes Enforcement Network
                           Statements of Budgetary Resources


                                                           For the Years Ended September 30
                                                              2008                       2007
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1              $11,218,743                $13,170,510
Recoveries of prior year unpaid obligations (Note 12)          2,427,034                  1,083,210
Budget authority:
Appropriations                                                85,844,000                 73,216,364
  Spending authority from offsetting collections:
    Earned
      Collected                                                1,736,169                  1,357,315
      Change in receivables from Federal sources                 869,932                    61,500
     Change in unfilled customer orders
      Without advance from Federal sources                     1,625,405                   507,984
  Subtotal                                                    90,075,506                 75,143,163
Non-expenditure transfers, net, anticipated and actual           221,045                    225,000
Permanently not available (Note 12)                           (1,329,157)                 (464,501)
Total budgetary resources                                   $102,613,171                $89,157,382

STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 12):
 Direct                                                      $79,783,234                $75,962,067
  Reimbursable                                                 4,369,943                  1,976,572
  Subtotal                                                    84,153,177                 77,938,639
Unobligated balance:
  Apportioned                                                 14,639,175                  7,553,962
Unobligated balance not available                              3,820,819                  3,664,781
Total status of budgetary resources                         $102,613,171                $89,157,382




                                                                       (Continued)


                                                  20
           The accompanying notes are an integral part of these financial statements.
                          United States Department of the Treasury
                           Financial Crimes Enforcement Network
                             Statements of Budgetary Resources

                                                            For the Years Ended September 30
                                                              2008                      2007
CHANGE IN OBLIGATED BALANCE
Obligated balance, net:
         Unpaid obligations brought forward, October 1      $16,223,079            $19,566,426
         Less: Uncollected customer payments from Federal
             sources, brought forward, October 1              (694,423)                 (124,939)
Total unpaid obligated balance, net                          15,528,656             19,441,487
Obligations incurred, net                                    84,153,177             77,938,639
Less: Gross outlays                                         (85,149,298)           (80,198,776)
Less: Recoveries of prior year unpaid obligations, actual    (2,427,034)            (1,083,210)
Change in uncollected customer payments from Federal
        sources                                              (2,495,337)                (569,484)
Obligated balance, net, end of period:
        Unpaid obligations                                   12,799,924             16,223,079
         Less: Uncollected customer payments from Federal
             sources                                         (3,189,760)             (694,423)
Total, unpaid obligated balance, net, end of period           $9,610,164           $15,528,656


NET OUTLAYS
      Gross outlays                                         $85,149,298            $80,198,776
         Less: Offsetting collections                        (1,736,169)            (1,357,315)
         Less: Distributed offsetting receipts                    2,821                   (3,440)
Net outlays                                                 $83,415,950            $78,838,021




                                                  21
           The accompanying notes are an integral part of these financial statements.
                      United States Department of the Treasury
                       Financial Crimes Enforcement Network
                          Statements of Custodial Activity


                                                        For the Years Ended September 30
                                                            2008                 2007
Revenue activity (Note 13):
    Sources of cash collections:
       Civil monetary penalties                              $12,532           $13,461,367
    Total cash collections                                    12,532            13,461,367
Accrual adjustments                                          (2,821)           (2,497,179)
Total custodial revenue                                        9,711            10,964,188


Disposition of collections:
    Transferred to others:
       Department of the Treasury                           (12,532)          (13,461,367)
        Decrease in amounts yet to be transferred              2,821             2,497,179
Net custodial activity                                             $0                   $0




                                                22
          The accompanying notes are an integral part of these financial statements.
                     United States Department of the Treasury
                      Financial Crimes Enforcement Network
                         Notes to the Financial Statements
                 For the Years Ended September 30, 2008 and 2007


NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Reporting Entity
The Financial Crimes Enforcement Network (FinCEN) was formally established by the
Department of the Treasury (Treasury), Order 105-08, on April 25, 1990 and upgraded to bureau
status on October 26, 2001 in Public Law 107-56. The mission of FinCEN is to enhance U. S.
national security, deter and detect criminal activity, and safeguard financial systems from abuse
by promoting transparency in the U.S. and international financial systems. This is accomplished
primarily through the administration of the Bank Secrecy Act (BSA); supporting law
enforcement, intelligence, and regulatory agencies through sharing and analysis of financial
intelligence; enhancing international anti-money laundering and counterterrorist financing efforts
and cooperation; and networking people, entities, ideas, and information. To align with
FinCEN’s new strategic plan, Strategic Goals in fiscal year 2008 were revised as follows: (1)
Financial systems resistant to abuse by money launderers, terrorists and their financial
supporters, and other perpetrators of financial crime; (2) Detection and deterrence of money
laundering, terrorism financing, and other illicit activity and; (3) Efficient management,
safeguarding, and use of BSA information. The new plan eliminated a stand alone international
goal and integrated this objective within the regulatory and analytic outcome goals. The
methodology used to allocate the costs between goals has been updated to reflect the new
strategic plan. The FY 2007 statement of net cost has been reclassified using the revised
methodology from FY 2008 for comparison purposes.

Basis of Accounting and Presentation
The financial statements have been prepared from FinCEN’s accounting records in conformity
with accounting principles generally accepted in the United States of America. Accounting
principles generally accepted for Federal entities are the standards prescribed by the Federal
Accounting Standards Advisory Board (FASAB). FASAB is recognized by the American
Institute of Certified Public Accountants as the official accounting standards-setting body of the
United States Government.

These financial statements are provided to meet the requirements of the Government
Management Reform Act of 1994. The financial statements consist of the balance sheet, and the
statements of net costs, changes in net position, budgetary resources and custodial activity. The
financial statements and the related notes are presented on a comparative basis providing
information for fiscal years 2008 and 2007.




                                                23
FinCEN’s financial statements with respect to the balance sheets, the statement of net cost, and
the statement of changes in net position are reported using the accrual basis of accounting.
Under the accrual method, revenues are recognized when earned and expenses are recognized
when a liability is incurred without regard to receipt or payment of cash. FinCEN’s statement of
budgetary resources is reported using the budgetary basis of accounting. Budgetary accounting
facilitates compliance with legal constraints and controls over the use of federal funds. It
generally differs from the accrual basis of accounting in that obligations are recognized when
new orders are placed, contracts awarded, and services received, that will require payments
during the same or future periods. FinCEN’s statement of financing reconciles differences
between the budgetary and accrual bases of accounting. FinCEN’s non-entity revenues are
reported on the statement of custodial activity using a modified accrual basis of accounting.
With this method, revenue from cash collections are reported separately from receivable accruals
and cash disbursements are reported separately from payable accruals.

Intragovernmental assets and liabilities result from activity with other Federal agencies. All
other assets and liabilities result from activity with parties outside the Federal government, such
as domestic and foreign persons, organizations, or governments. Intragovernmental earned
revenues are collections or accruals of revenue from other Federal agencies, and
intragovernmental costs are payments or accruals to other Federal agencies.

While these financial statements have been prepared from the books and records of FinCEN,
these financial statements are in addition to the financial reports used to monitor and control
budgetary resources which are prepared from the same books and records.

These financial statements should be read with the realization that they are for a component of a
sovereign entity, that liabilities not covered by budgetary resources cannot be liquidated without
the enactment of an appropriation, and that the payment of all liabilities other than for contracts
can be abrogated by the sovereign entity.

Fund Balance with Treasury
FinCEN does not maintain cash in commercial bank accounts. The Treasury processes cash
receipts and disbursements. Fund balance with Treasury is composed of appropriated and trust
funds that are available to pay current liabilities and finance authorized purchase commitments.

Accounts Receivable
Accounts receivable represent amounts owed to FinCEN by other Federal agencies and the
public. Intragovernmental accounts receivable represent amounts due from other Federal
agencies under contractual agreements or other arrangements for services or activities performed
by FinCEN. These receivables are expected to be fully collected.

Public accounts receivable consist of administrative receivables from employees or suppliers and
the levy of civil monetary penalties from non-Federal sources resulting from FinCEN’s
regulatory responsibilities. Public accounts receivable are presented net of an allowance for
doubtful accounts, which is determined by considering the debtor’s current ability to pay, the
debtor’s payment record and willingness to pay, and an analysis of aged receivable activity.



                                                 24
Property and Equipment
Property and equipment is recorded at cost and is depreciated using the straight-line method over
the estimated useful lives of the assets. FinCEN capitalizes property and equipment with an
acquisition value of $25,000 or greater, and a useful life of two years or greater. FinCEN also
capitalizes bulk acquisitions of like-kind property and equipment items that are individually
valued under the capitalization threshold but are, in the aggregate, significant to FinCEN’s
financial position or results of operations.

Internal-use software includes purchased commercial off-the-shelf software (COTS), contractor
developed software, and software that was internally developed by agency employees. For
COTS software, the capitalized costs include the amount paid to the vendor for the software, for
contractor developed software it includes the amount paid to a contractor to design, program,
install and implement the software. Capitalized costs for internally developed software include
the full cost (direct and indirect) incurred during the software development phase.

Major alterations and renovations that increase an asset’s useful life are capitalized, while normal
maintenance and repair costs are charged to expense as incurred. Upon legal transfer, donation,
or approval for disposal of property and equipment, the value of the related asset and
corresponding accumulated depreciation is removed.

Leasehold improvements are amortized over the shorter of the term of the remaining portion of
the lease, or the useful life of the improvement. Amortization of capitalized software begins on
the date the software is placed in production (i.e., successfully installed and tested).

Equipment that is to be constructed is recorded as construction-in-progress until completed and
is valued at actual costs. Construction-in-progress assets are not depreciated until completed and
placed in service.

Liabilities
Liabilities represent the probable and measurable future outflow or other sacrifice of resources as
a result of past transactions or events. Since FinCEN is a component of the United States
government, a sovereign entity, FinCEN’s liabilities cannot be liquidated without legislation that
provides resources or an appropriation. Liabilities covered by budgetary resources are those
liabilities for which Congress has appropriated funds or funding is otherwise available to pay
amounts due. Liabilities not covered by budgetary or other resources represent amounts owed in
excess of available, congressionally appropriated funds or other amounts, and there is no
certainty that the appropriations will be enacted. The United States government, acting in its
sovereign capacity, can abrogate liabilities of FinCEN arising from other than contracts.

Annual, Sick and Other Leave
Annual leave is accrued as a liability when earned, and the accrual is reduced as leave is taken.
The balance in the accrued annual leave account reflects current pay rates and leave balances,
and is reported within other liabilities in the accompanying Balance Sheet. Sick leave and other
types of non-vested leave are charged to operating costs as the leave is taken.




                                                25
Workers’ Compensation
A liability is recorded for actual and estimated future payments to be made for workers’
compensation pursuant to the Federal Employees’ Compensation Act (FECA). The actual
liability is presented as a component of intragovernmental other liabilities, and the actuarial
liability is presented within other liabilities in the accompanying Balance Sheet.

FECA provides income and medical cost protection to covered Federal civilian employees
injured on the job, employees who have incurred work-related occupational diseases and
beneficiaries of employees whose death is attributable to a job-related injury or occupational
disease. Claims incurred for benefits to employees are administered by the U.S. Department of
Labor (DOL) which initially pays valid claims and subsequently seeks reimbursement from the
Federal agencies employing the claimants. Reimbursement to DOL occurs approximately two
years subsequent to the actual disbursement to the claimant. Budgetary resources for this
intragovernmental liability are made available to FinCEN as part of its annual appropriation from
Congress in the year in which the reimbursement takes place.

Future workers’ compensation estimates are generated by DOL from an application of actuarial
procedures developed to estimate the liability for FECA benefits. The actuarial liability for
future workers’ compensation benefits includes the expected liability for death, disability,
medical and miscellaneous costs for approved compensation cases, plus a component for
incurred but not reported claims. The liability is determined using a method that utilizes
historical benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. Based on information provided by the DOL, Treasury allocates
the overall Treasury liability to Treasury components based on prior claims payment experience.
The accrued liability is not covered by budgetary resources and will require future funding.

Unamortized Rent Abatement
The terms of the operating lease between FinCEN and the General Services Administration
(GSA) for the Vienna, VA facility, contains a rent abatement period of one year. During the rent
abatement period no rent is payable to GSA. Rent payments commenced in fiscal year 2006,
however, FinCEN is recognizing rent expense on a straight-line basis over the lease term.
Accordingly, an unamortized rent abatement liability is included in other intragovernmental
liabilities in the accompanying Balance Sheet. This liability is being amortized on a straight-line
basis over the lease term.

Pension Costs and Other Retirement Benefits
Most FinCEN employees hired prior to January 1, 1984 participate in the Civil Service
Retirement System (CSRS). As of September 30, 2008 and 2007, FinCEN contributed 7 percent
of base pay for regular employees.

Employees hired after December 31, 1983 are automatically covered by the Federal Employee’s
Retirement System (FERS) and Social Security. As of September 30, 2008 and 2007, FinCEN
contributed 11.2 percent of base pay for the FERS basic benefit. A primary feature of FERS is
that it offers a savings plan to which FinCEN automatically contributes 1 percent of base pay and
matches employee contributions up to an additional 4 percent of base pay. FinCEN also
contributes the employer’s Social Security matching share for FERS participants.


                                                 26
FinCEN is not responsible for administering either CSRS or FERS. Therefore, FinCEN does not
report CSRS or FERS assets, accumulated plan benefits or unfunded liabilities, if any, applicable
to FinCEN employees. Reporting such amounts is the responsibility of Office of Personnel
Management (OPM).

Similar to CSRS and FERS, OPM, rather than FinCEN, reports the liability for future payments
to retired employees who participate in the Federal Employees Health Benefits Program
(FEHBP) and the Federal Employees Group Life Insurance Program (FEGLI). FinCEN does not
contribute funds for the cost to provide health benefits and life insurance to its retirees.

The estimated cost of providing CSRS and FERS retirement and FEHBP and FEGLI benefits to
retirees is more than the amounts contributed by FinCEN and its employees. Federal entities are
required to report the full cost of providing retirement benefits to include the cost financed by
OPM. The additional expense representing the difference between the estimated cost and the
employer and employee contributions for these programs is included as an expense and related
imputed financing source in FinCEN’s financial statements.

Entity Revenues, Financing Sources and Imputed Financing Sources
FinCEN receives the majority of funding needed to support its programs through Congressional
appropriations. Additional funding is obtained through exchange revenues.

Appropriations are recognized as a financing source at the time the expenses are incurred or
assets are purchased. Exchange revenue from reimbursable agreements is recognized when
earned (i.e., goods have been delivered or services rendered). Reimbursable work between
Federal appropriations is subject to the Economy Act (31 U.S.C. 1535) or other statutes
authorizing reimbursement. Prices for goods and services sold to other Federal agencies are
generally limited to the recovery of actual costs. FinCEN recognizes as an imputed financing
source the amount of pension and post-retirement benefit expense for current employees paid on
behalf of FinCEN by OPM. When costs that are identifiable to FinCEN and directly attributable
to FinCEN’s operations are paid for by other agencies, FinCEN recognizes these amounts as
imputed costs and financing sources.

Imputed intradepartmental costs represent the un-reimbursed portion of the full costs of goods
and services received by FinCEN from a providing bureau that is part of Treasury. FinCEN
identifies intra-entity costs that meet the criteria for recognition (i.e. materiality, significance to
the entity, directness of the relationship to entity operations, identifiably) that are not fully
reimbursed and recognizes them as operating expenses and an imputed financing source.

Non-Entity Assets, Revenues and Disbursements
Non-entity assets are those held by FinCEN that are not available for use by FinCEN. Non-entity
accounts receivable reported on FinCEN’s Balance Sheet and non-entity revenue reported on
FinCEN’s Statement of Custodial Activity includes civil monetary penalties. Civil monetary
penalties represent amounts assessed on or collected from non-Federal sources for violations of
laws and regulations under FinCEN’s regulatory responsibility.



                                                   27
Non-entity accounts receivable, custodial revenue and disposition of revenue is recognized when
FinCEN is entitled to collect civil monetary penalties on behalf of the Federal government that
have been established as a legally enforceable claim and collection is probable. Proceeds from
the civil monetary penalty assessments are ultimately deposited in the Treasury General Fund
based on established laws and regulations. These funds are not available to fund FinCEN’s
operating activities and accordingly, an offsetting liability due to the Treasury General Fund is
recorded for amounts recognized as non-entity accounts receivable.

Non-entity accounts receivable are presented net of amounts deemed uncollectible. An
allowance for doubtful accounts is established based on an assessment of the debtor’s current
ability to pay, the debtor’s payment record and willingness to pay, and an analysis of aged
receivable activity.

Use of Estimates
The preparation of the financial statements in accordance with generally accepted accounting
principles requires management to make estimates and assumptions that affect the reported
amounts of assets and liabilities, the disclosure of contingencies at the date of the financial
statements, and the reported amounts of revenue and expenses during the reporting period.
Significant estimates relate to an allowance for loss on a receivable for fines and penalties,
accrued payroll and benefits, and accrued unfunded leave. Actual results may differ from those
estimates.

Tax Status
FinCEN, as a Federal agency, is not subject to Federal, state, or local income taxes and,
accordingly, no provision for income taxes has been recorded in the accompanying financial
statements.

NOTE 2. NON-ENTITY ASSETS

Non-entity assets as of September 30, 2008 and 2007 consisted of the following:
                                                              2008                      2007
 Civil penalties assessed                                   $1,500,000                $1,500,000
 Custodial account receivable                                           -                   2,821
 Less allowance for doubtful collection                     (1,500,000)               (1,500,000)
            Total non-entity assets                                    0                    2,821
 Total entity assets                                          39,943,785              41,757,754
           Total assets                                      $39,943,785             $41,760,575


Non-entity accounts receivable as of September 30, 2007 represents civil monetary penalties due
from non-Federal sources for violations of laws or regulations under FinCEN’s regulatory
responsibility.




                                               28
The total non-entity assets, if any, are offset on the balance sheet by the custodial liability Due to
the Treasury General Fund. The amount Due to the Treasury General Fund is included in the
intragovernmental other liabilities balance shown in note 8.

NOTE 3. FUND BALANCE WITH TREASURY

Fund Balances:
Fund balance with Treasury as of September 30, 2008 and 2007 consisted of the following
components:
                                             2008                   2007

 Trust funds                                            $149,628                $149,628
 Appropriated funds                                    27,920,530              26,597,771
 Total                                             $28,070,158                $26,747,399




Trust funds consist of a violent crime reduction expenditure account that is designated by law as
a trust fund. Receipts in this account are used for law enforcement related information
technology projects.

Appropriated funds consist of amounts appropriated annually by Congress to fund the operations
of FinCEN.

Status of Fund Balances:
The status of fund balance with Treasury as of September 30, 2008 and 2007 consisted of the
following:

                                                        2008                     2007
 Unobligated balance:
     Available                                      $14,639,175                 $7,553,962
     Unavailable                                      3,820,819                  3,664,781
 Obligated balance not yet disbursed                  9,610,164                 15,528,656
 Total                                              $28,070,158                $26,747,399

The unobligated balance unavailable represents amounts appropriated in prior fiscal years that
are not available to fund new obligations, but may be used to adjust obligations and
disbursements that were recorded before the budgetary authority expired or to meet a bona fide
need that arose in the fiscal year for which the appropriation was made.




                                                  29
The obligated balance not yet disbursed represents amounts designated for payment of goods and
services ordered but not received, or goods and services received but for which payment has not
yet been made.

NOTE 4. ACCOUNTS RECEIVABLE, NET

Components of accounts receivable as of September 30, 2008 and 2007, were as follows:
                                                    2008                2007
 Intragovernmental:
    Accounts receivable                            $987,111            $117,179
 Public:
    Accounts receivable                                5,228               5,392
    Civil penalties assessed                      1,500,000            1,500,000
    Less allowance for doubtful collection      (1,500,000)          (1,500,000)
    Public accounts receivable, net                    5,228               5,392
 Total accounts receivable, net                      $992,339             $122,571



Intragovernmental accounts receivable arise from the provision of goods and services to other
Federal agencies.

Accounts receivable from public sources consist of administrative receivables from employees or
suppliers and civil monetary penalties which have been billed or accrued and remain uncollected
as of year-end. The collection of civil monetary penalties is a custodial activity performed by
FinCEN. An allowance for doubtful accounts of $1,500,000 has been recognized to offset a civil
monetary penalty that was referred to Debt Management Operations within the Financial
Management Service.




                                               30
NOTE 5. PROPERTY AND EQUIPMENT, NET

Property and equipment as of September 30, 2008 and 2007 consisted of the following:
                                                                        2008
                                         Useful                    Accumulated                Net
                           Depreciation    Life     Acquisition    Depreciation/             Book
                              Method       (In         Cost        Amortization
                                         years)                                             Value
 Furniture, fixtures and
          equipment            S/L         5-7        $8,538,507     ($5,001,914)           $3,536,593
 Construction in progress      N/A         N/A           617,220                  -            617,220
 Internal-use software         S/L          5        11,726,769        (9,022,786)           2,703,983
 Internal-use software in
          development          N/A         N/A           273,473                  -           273,473
 Leasehold improvements        S/L         3-5           864,147         (644,586)            219,561
 Total                                                 $22,020,116     ($14,669,286)        $7,350,830


                                                                          2007
                                           Useful                      Accumulated            Net
                            Depreciation    Life       Acquisition     Depreciation/         Book
                              Method        (In          Cost          Amortization
                                           years)                                           Value
 Furniture, fixtures and
          equipment             S/L          5-7         $8,241,891      ($4,089,171)       $4,152,720
 Construction in progress       N/A          N/A          1,379,204                 -        1,379,204
 Internal-use software          S/L           5          10,152,489       (7,488,342)        2,664,147
 Internal-use software in
          development           N/A          N/A          4,473,584                 -        4,473,584
 Leasehold improvements         S/L          3-5            601,829         (570,187)           31,642
 Total                                                 $24,848,997     ($12,147,700)     $12,701,297



Construction-in-progress represents equipment that has been received but has not yet been
constructed and placed into operation.

Internal-use software in development represents actual (direct) costs and other indirect costs
incurred for various software development projects not yet placed in service. The indirect costs
consist of the applied overhead on FinCEN employee labor associated with the software in



                                               31
development. Depreciation and amortization expense recognized during the year ended
September 30, 2008 and 2007 was $2,869,897 and $2,713,477, respectively.


On July 13, 2006 FinCEN permanently halted the BSA Direct Retrieval and Sharing Component
(BSA Direct R&S) project. FinCEN wrote off $5.1 million in FY06, $7.1 million in FY 07, and
$3.2 million in FY08. This further write-off in fiscal year 2008 is due to delays in the overall
BSA modernization project that initially planned to employ the remaining assets. This write-off
decreased the property, plant and equipment balance reported on the balance sheet and increased
the expenses reported in the statement of net cost. Specifically, this write-off decreased Internal
Use Software in Development by $3.0 million and Construction in progress by $0.2 million and
resulted in a decrease to the property and equipment balance reported on the balance sheet and
increased the expenses reported in the statement of net cost.

NOTE 6. OTHER ASSETS

Other assets as of September 30, 2008 and 2007 consisted of the following:
                                               2008                      2007
 Intragovernmental:
    Advances and prepayments               $ 3,518,468               $ 2,189,308
 Total intragovernmental                     3,518,468                 2,189,308
    Advances and prepayments                     11,990                        -
 Total Other Assets                        $ 3,530,458               $ 2,189,308




Intragovernmental advances and prepayments primarily consist of amounts paid to the
Department of the Treasury Working Capital Fund and the Department of Interior National
Business Center Franchise Fund Acquisition Services Directorate prior to FinCEN’s receipt of
goods and services.




                                                32
NOTE 7. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

Liabilities not covered by budgetary resources represent amounts owed in excess of available
appropriated or other amounts. The liquidation of liabilities not covered by budgetary resources
is dependent on future congressional appropriations. The September 30, 2008 and 2007
liabilities not covered by budgetary resources consisted of the following:
                                                                 2008                   2007
  Intragovernmental:
            Accrued workers’ compensation                           $8,509                $5,262
            Unamortized rent abatement                          2,137,506              2,509,246
                 Total intragovernmental                        2,146,015              2,514,508
  Public:
            Accrued annual leave                                2,391,282              2,209,877
            Actuarial liability for workers’ compensation           21,204                32,980
              Total public                                   2,412,486                2,242,857
 Total liabilities not covered by budgetary resources        4,558,501                4,757,365
 Total liabilities covered by budgetary resources or
          non-entity assets                                  6,932,111               9,687,757
              Total liabilities                            $11,490,612             $14,445,122




                                               33
NOTE 8. OTHER LIABILITIES
Other liabilities as of September 30, 2008 and 2007 consisted of the following:
                                                                   2008
                                              Non-Current         Current         Total
Intragovernmental:
     Due to Treasury General Fund                         $-             $0               $0
     Due to other Federal agencies                                    1,573            1,573
     Accrued employee benefits                             -        314,649          314,649
     Accrued workers’ compensation                     3,967          4,542            8,509
     Unamortized rent abatement                    1,765,766        371,740        2,137,506
Total intragovernmental                            1,769,733        692,504        2,462,237

Public:
   Accrued payroll and employee benefits                    -      1,474,720       1,474,720
   Accrued annual leave                                     -      2,391,282       2,391,282
   Actuarial liability for workers’
        compensation                                 21,204                 -         21,204
Total public                                         21,204        3,866,002       3,887,206
Total other liabilities                           $1,790,937     $4,558,506       $6,349,443


                                                                  2007
                                              Non-Current        Current          Total
Intragovernmental:
     Due to Treasury General Fund                         $-         $2,821           $2,821
     Due to other Federal agencies                         -          1,652            1,652
     Accrued employee benefits                             -        241,098          241,098
     Accrued workers’ compensation                     4,942            320            5,262
     Unamortized rent abatement                    2,137,506        371,740        2,509,246
Total intragovernmental                            2,142,448        617,631        2,760,079

Public:
   Accrued payroll and employee benefits                    -      1,138,919       1,138,919
   Accrued annual leave                                     -      2,209,876       2,209,876
   Actuarial liability for workers’
        compensation                                 32,980                 -        32,980



                                             34
 Total public                                           32,980        3,348,795      3,381,775
 Total other liabilities                            $2,175,428    $3,966,426       $6,141,854

NOTE 9. LEASES

FinCEN leases office space from the General Services Administration (GSA) under long-term
occupancy agreements. All of the office space occupied by FinCEN is leased by GSA from
commercial sources. GSA space is assigned to FinCEN based upon current needs. FinCEN is
not committed to continue to pay rent to GSA beyond the period occupied providing proper
advance notice to GSA is made. However, it is expected that FinCEN will continue to occupy
and lease office space from GSA in future years. The lease expense incurred related to GSA
leases during fiscal years 2008 and 2007 was $4,161,305 and $4,630,723 respectively.

As of September 30, 2008 future lease payments due under non-cancelable operating leases are
as follows:

                    2009                             $25,718
                    2010                              24,361
                    2011                              24,361
                    2012                              24,361
                    2013                              24,361
                    Thereafter                       355,264
                    Total future payments           $478,426



NOTE 10. CONTINGENT LIABILITIES

FinCEN is party to various administrative proceedings, legal actions and claims. The balance
sheet includes an estimated liability for those legal actions where the Legal Counsel considers
adverse decisions probable and the potential loss can be estimated. In the opinion of
management and legal counsel, no legal actions against FinCEN are both probable and estimable
as of September 30, 2008 and 2007, and no legal liabilities have been accrued in the
accompanying financial statements.

There are no legal actions where management or legal counsel considers adverse decisions
reasonably possible and amounts are reasonably estimable as of September 30, 2008. The two
legal actions considered reasonably possible as of September 30, 2007 were settled for $18,000.

Reasonably possible losses are not recognized on the balance sheet.




                                               35
 NOTE 11. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

 Intragovernmental costs and exchange revenue for the years ended September 30, 2008 and
 2007 consisted of the following:
                                                                  2008             2007
 PROGRAM COSTS
 Financial systems resistant to abuse by money launders,
 terrorists, etc.

      Intragovernmental costs                                        $17,389,203        $15,264,950
      Public costs                                                    16,360,686         17,073,665
           Total program costs                                        33,749,889          32,338,615
      Intragovernmental earned revenue                                  (22,171)                   -
 Net program cost                                                     33,727,718          32,338,615

 Detection and deterrence of money laundering, terrorism
 financing and other illicit activity


      Intragovernmental costs                                         13,127,148          11,190,534
      Public costs                                                    12,350,717          12,516,480
           Total program costs                                        25,477,865          23,707,014
      Intragovernmental earned revenue                                 (174,069)           (415,015)
 Net program cost                                                     25,303,796          23,291,999

 Efficient management, safeguarding, and use of Bank Secrecy
 Act information


      Intragovernmental costs                                         27,939,613          24,327,827
      Public costs                                                    26,287,071          27,210,386
           Total program costs                                         54,226,684         51,538,213
      Intragovernmental earned revenue                                (1,934,751)        (1,003,801)
 Net program cost                                                     52,291,933          50,534,412

 Net cost of operations                                             $111,323,447       $106,165,026



The criteria used for this classification are that that the intragovernmental costs relate to the
source of goods and services purchased by the reporting entity, and not to the classification of


                                                 36
related revenue. For example, “exchange revenue with the public” is when the buyer of the
goods or services is a non-Federal entity. While with “intragovernmental costs,” the buyer and
seller are both Federal entities. If a Federal entity purchases goods or services from another
Federal entity and sells them to the public, the exchange revenue would be classified as “with the
public,” but the related costs would be classified as “intragovernmental.” The purpose of this
classification is to enable the Federal government to provide consolidated financial statements,
and not to match public and intragovernmental revenue with costs that are incurred to produce
public and intragovernmental revenue.

FinCEN revised the distribution of the Statement of Net Cost program goals to align with
FinCEN’s new strategic plan. The new plan eliminated a stand alone international goal and
integrated these objectives within the regulatory and analytic outcome goals. The methodology
used to allocate the costs between goals has been updated to classify and present programmatic
costs consistent with the new strategic plan. In addition, the method to allocate the earned
revenue was revised to more closely align with the program goals. The statement of net cost for
the year ended September 30, 2007 has been reclassified using the revised methodologies for
comparative purposes.


NOTE 12. STATEMENT OF BUDGETARY RESOURCES

Apportionment Categories of Obligations Incurred
Obligations incurred as reported on the Statement of Budgetary Resources for the years ended
September 30, 2008 and 2007 consisted of the following:

                                                      2008                   2007
 Direct Obligations
    Category B                                    $79,783,234              $75,962,067
 Reimbursable Obligations
    Category B                                        4,369,943              1,976,572
 Total                                            $84,153,177             $77,938,639




Apportionment categories are determined in accordance with the guidance provided in OMB
Circular A-11, Preparation, Submission and Execution of the Budget. Category B represents
resources apportioned for other time periods other than calendar quarters; for activities, projects,
or objectives; or for any combination thereof. FinCEN only has Category B apportionments.




                                                 37
Adjustments to Beginning Balance of Budgetary Resources
Adjustments to budgetary resources available at the beginning of fiscal years 2008 and 2007
consisted of the following:
                                                  2008                     2007

 Recoveries of prior year obligations            $2,427,034             $1,083,210
 Cancellations of expired accounts              (1,329,157)              (464,501)
 Total                                           $1,097,877               $618,709



Differences Between the Statement of Budgetary Resources and the Budget of the United
States
The fiscal year 2010 Budget of the United States Government (also known as the President’s
Budget) with actual numbers for fiscal year 2008, was not published at the time these financial
statements were issued. The President’s Budget is expected to be published in February 2009.

The following chart displays the differences between the fiscal year 2007 Statement of
Budgetary Resources and the actual fiscal year 2007 balances included in the fiscal year 2009
President’s Budget.

                                                                  (In millions)
                                                    Budgetary Obligations Offsetting  Net
                                                    Resources Incurred      Receipts Outlays
 Statement of Budgetary Resources                     $75         $78           $1        $79
 Obligations in expired accounts not included in
         President’s Budget                                 -     (1)                -          -
 President’s Budget                                   $75         $77           $1        $79


The obligations in expired accounts are not included in the President’s Budget as they not would
be true reflections of the available funds.

Undelivered Orders at the End of the Period
Undelivered orders as of September 30, 2008 and 2007 were $9,398,270 and $8,727,449,
respectively.

NOTE 13. STATEMENT OF CUSTODIAL ACTIVITY

FinCEN assesses civil monetary penalties related to enforcement of the Bank Secrecy Act as
authorized by 31 U.S.C. 5321(b). FinCEN collects this custodial revenue and distributes the full
amount of penalties collected to the Treasury General Fund. For the years ended September 30,
2008 and 2007 cash collections and distributions to Treasury were $12,532 and $13,461,367,
respectively. The custodial accrual adjustment totaling $2,821 and $2,497,179 at September 30,


                                               38
2008 and 2007, respectively, reflects the change in accounts receivable FinCEN has which are
offset by the increase in custodial liability – amounts yet to be transferred of $2,821 in 2008 and
a decrease in custodial liability – amounts yet to be transferred of $2,497,179 in 2007.

NOTE 14. IMPUTED FINANCING SOURCES

FinCEN has imputed financing costs with the Office of Personnel Management for employee
related costs as well as the Internal Revenue Service. Imputed financing sources from the
Internal Revenue Service relate to the collection and processing of Bank Secrecy Act Data. A
summary of the imputed financing costs by agency for the years ended September 30, 2008 and
2007 is as follows:

                                                      2008                       2007

 Office of Personnel Management                       $1,862,984                $1,968,866
 Internal Revenue Service                             25,387,184                22,969,563
 Total Imputed Financing Sources                     $27,250,168               $24,938,429




                                                39
NOTE 15. RECONCILIATION OF NET COST OF OPERATIONS
(PROPRIETARY)
   TO BUDGET
A reconciliation of net cost of operations to budget for the years ended
   September 30, 2008 and 2007 follows:
                                                                           For the Years Ended
                                                                              September 30
                                                                           2008           2007
Resources used to finance activities:
Budgetary resources obligated:
         Obligations incurred                                         $84,153,177       $77,938,639
         Less: Spending authority from offsetting collections and
             recoveries                                                   (6,658,540)   (3,010,009)
         Obligations net of offsetting collections and recoveries          77,494,637   74,928,630
         Less: Offsetting receipts                                             2,821         (3,440)
         Net obligations                                                  77,497,458     74,925,190
Other resources:
         Transfers in/out without reimbursement                              475,111               -
         Imputed financing from costs absorbed by others                  27,250,168     24,938,429
         Net other resources used to finance activities                   27,725,279     24,938,429


Total resources used to finance activities                            105,222,737        99,863,619

Resources used to finance items not part of the net cost of operations:
Change in budgetary resources obligated for goods, services
        and benefits ordered but not yet provided                          (954,584)         444,224
Resources that fund expenses recognized in prior periods                     383,516         365,333
Budgetary offsetting collections and receipts that do not affect
        net cost of operations
             Other                                                           477,932         (3,440)
Resources that finance the acquisition of assets                           1,080,894      2,694,594
Other resources or adjustments to net obligated resources that
         do not affect net cost of operations                              (475,111)              -
Total resources used to finance items not part of the net                    512,647      3,500,711
cost of operations

Total resources used to finance the net cost of operations            104,710,090        96,362,908

                                                                               (Continued)


                                                    40
                                                               For the Years Ended September 30
                                                                    2008              2007
Components of the net cost of operations that will not
require or generate resources in the current period:
Components requiring or generating resources in future
periods:
  Increase in annual leave liability                                $181,406            $10,873
  Other                                                                 3,247             4,095
Total components of net cost of operations that will require
or generate resources in future periods                              184,653             14,968
Components not requiring or generating resources:
  Depreciation and amortization                                     2,869,897         2,713,477
  Revaluation of assets or liabilities                              3,561,464         7,073,673
  Other                                                               (2,657)                 -
Total components of net cost of operations that will not
require or generate resources                                       6,428,704         9,787,150


Total components of net cost of operations that will not
require or generate resources in the current period                 6,613,357         9,802,118


Net cost of operations                                           $111,323,447      $106,165,026




                                                41
                         United States Department of the Treasury
                          Financial Crimes Enforcement Network
                           Required Supplementary Information
                     For the Years Ended September 30, 2008 and 2007

STATEMENT OF BUDGETARY RESOURCES
Budgetary resources disaggregated by major accounts for the years ended September 30, 2008 and
2007 consisted of the following:
                                                                                 2008
                                                             Appropriated       Trust
                                                               Funds            Funds          Total
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                $11,157,150       $61,593      $11,218,743
Recoveries of prior year unpaid obligations                      2,427,034               -      2,427,034
Budget authority:
         Appropriations                                         85,844,000               -     85,844,000
Spending authority from offsetting collections:
         Earned
              Collected                                          1,736,169               -      1,736,169
              Change in receivables from Federal sources           869,932               -        869,932
         Change in unfilled customer orders
              Without advance from Federal sources               1,625,405               -      1,625,405
         Subtotal                                               90,075,506               -     90,075,506
Non-expenditure transfer, net: anticipated and actual              221,045               -        221,045
Permanently not available                                       (1,329,157)            -       (1,329,157)
Total budgetary resources                                     $102,551,578       $61,593     $102,613,171


STATUS OF BUDGETARY RESOURCES
Obligations incurred:
         Direct                                                $79,783,234              $0    $79,783,234
         Reimbursable                                            4,369,943               -      4,369,943
         Subtotal                                               84,153,177               -     84,153,177
Unobligated balance:
         Apportioned                                            14,577,582        61,593       14,639,175
Unobligated balance not available                                3,820,819               -      3,820,819
Total status of budgetary resources                           $102,551,578       $61,593     $102,613,171


                                                                              (Continued)



                                                        42
                                                                                   2008
                                                                    Appropriated   Trust
                                                                      Funds        Funds         Total
CHANGE IN OBLIGATED BALANCES
Obligated balance, net:
         Unpaid obligations brought forward, October 1               $16,135,044   $88,035     $16,223,079
        Less: Uncollected customer payments from Federal sources,
    brought
            forward, October 1                                         (694,423)                 (694,423)
         Total unpaid obligated balance, net                          15,440,621    88,035      15,528,656
Obligations incurred, net                                             84,153,177           -    84,153,177
Less: Gross outlays                                                 (85,149,298)           -   (85,149,298)
Less: Recoveries of prior year unpaid obligations, actual            (2,427,034)           -    (2,427,034)
Change in uncollected customer payments from Federal
        sources                                                      (2,495,337)                (2,495,337)
Obligated balance, net, end of period
         Unpaid obligations                                           12,711,889    88,035      12,799,924
         Less: Uncollected customer payments from Federal sources    (3,189,760)                (3,189,760)
                                                                                           -
Total, unpaid obligated balance, net, end of period
                                                                      $9,522,129   $88,035      $9,610,164


NET OUTLAYS
         Gross outlays                                               $85,149,298          $0   $85,149,298
         Less: Offsetting collections                                (1,736,169)           -    (1,736,169)
         Less: Distributed offsetting receipts                             2,821           -         2,821
Net outlays
                                                                     $83,415,950          $0   $83,415,950




                                                       43
                        United States Department of the Treasury
                         Financial Crimes Enforcement Network
                          Required Supplementary Information
                    For the Years Ended September 30, 2008 and 2007

                                                                               2007
                                                             Appropriated     Trust
                                                               Funds          Funds         Total
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1               $13,105,616      $64,894    $13,170,510
Recoveries of prior year unpaid obligations                     1,083,210             -     1,083,210
Budget authority:

Appropriations                                                 73,216,364             -    73,216,364
Spending authority from offsetting collections:
Earned
Collected                                                       1,357,315             -     1,357,315
Change in receivables from Federal sources                         61,500             -        61,500
Change in unfilled customer orders
without advance from Federal sources                              507,984                    507,984
                                                                                      -
Subtotal                                                       75,143,163             -    75,143,163
Non-expenditure transfer, net: anticipated and actual             225,000                    225,000
Permanently not available                                       (464,501)                   (464,501)
                                                                                     -
Total budgetary resources                                     $89,092,488      $64,894    $89,157,382


STATUS OF BUDGETARY RESOURCES
Obligations incurred:

Direct                                                        $75,958,766       $3,301    $75,962,067
Reimbursable                                                    1,976,572                   1,976,572
                                                                                     -
Subtotal                                                       77,935,338        3,301     77,938,639
Unobligated balance:
 Apportioned                                                    7,492,369       61,593      7,553,962
Unobligated balance not available                               3,664,781                   3,664,781
                                                                                     -
Total status of budgetary resources                           $89,092,488      $64,894    $89,157,382




                                                                            (Continued)




                                                        44
                                                                                    2007
                                                                    Appropriated    Trust
                                                                       Funds        Funds         Total
CHANGE IN OBLIGATED BALANCES
Obligated balance, net
         Unpaid obligations brought forward, October 1               $19,474,850    $91,576     $19,566,426
         Less: Uncollected customer payments from Federal
              sources, brought forward, October 1                      (124,939)            -     (124,939)
Total unpaid obligated balance, net                                   19,349,911     91,576      19,441,487
Obligations, incurred, net                                            77,941,940    (3,301)      77,938,639
Less: Gross outlays                                                  (80,191,934)   (6,842)     (80,198,776)
Less: Recoveries of prior year unpaid obligations, actual             (1,083,210)           -    (1,083,210)
Change in uncollected customer payments from Federal sources           (569,484)            -     (569,484)
Obligated balance, net, end of period
         Unpaid obligations                                           16,135,044     88,035      16,223,079
         Less: Uncollected customer payments from Federal sources      (694,423)            -     (694,423)
Total, unpaid obligated balance, net, end of period                  $15,440,621    $88,035     $15,528,656


NET OUTLAYS
         Gross outlays                                               $80,191,934     $6,842     $80,198,776
         Offsetting collections                                       (1,357,315)           -    (1,357,315)
         Distributed offsetting receipts                                  (3,440)           -        (3,440)
Net outlays                                                          $78,831,179     $6,842     $78,838,021




                                                       45
